No.

In The Supreme Court of the United States
UMB BANK, N.A. AND COLORADO BONDSHARES – A TAX-EXEMPT FUND,

Applicants,

v.
LANDMARK TOWERS ASSOCIATION, INC., a Colorado nonprofit corporation, by Miller
Frishman Group, LLC as Receiver for 7677 East Berry Avenue Associates, L.P., its Declarant,

Respondent.

Certificate of Service

I, Michael L. Francisco, a member of the Bar of the United States Supreme
Court, certify that on June 13, 2019, as required by Supreme Court Rule 29, I
caused

the

foregoing

APPLICATION

TO

THE

HONORABLE

SONIA

SOTOMAYOR FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT OF
CERTIORARI TO THE COLORADO COURT OF APPEALS to be electronically
filed with the Clerk of the United States Supreme Court, and to be served on the
Respondents in the above-captioned proceeding, via electronic mail and by
depositing copies of the same by FedEx overnight courier, as follows:
Counsel for Respondent Landmark Towers Association, Inc.:
Brian K. Matise, Esq.
Nelson P. Boyle, Esq.
Burg Simpson Eldredge Hersh & Jardine, P.C.
40 Inverness Drive East
Englewood, CO 80112

And Marin Metropolitan District, a Colorado special district 1:
304 Inverness Way South, Suite 490
c/o Simmons & Wheeler, P.C.
Englewood, CO 80112
Respectfully submitted,
Michael Francisco

Counsel of Record

Statecraft PLLC
620 N. Tejon St., Suite 101
Colorado Springs, CO 80903
(719) 822-2809

Counsel for UMB Bank and Colorado
Bondshares
June 13, 2019

Counsel for the Marin Metropolitan District, John N. McNamara, Esq., passed away in
2018 during the underlying proceedings. Because the Marin Metropolitan District does
not appear to be represented by counsel, Applicants are serving the district pursuant to
Rule 29(3).
1

